                         CLOSEOUT FOR CASE M-00040017
The NSF program officer' brought an allegation of misconduct in science to our
attention. The cornplainant: who received the subject's NSF proposal3 to review, alleged
that some of the information in the subject's NSF proposal was taken (intellectual theft)
from another re~earcher.~
 We contacted the complainant who told us the only way the subject could have obtained
some of the information he used in the proposal was from the researcher. She explained
that she had worked with the researcher for 4 years before she left 3 years ago for a new
position. We asked the complainant to provide specific details about what material she
thought had been used by the subject inappropriately in the proposal, but she declined to
provide this information. She did say that while at the subject's and researcher's
institution, she was unaware of any work they had shared, despite the close proximity of
their laboratories. She was surprised that, given what was contained in the proposal, that
the researcher was not a co-PI. The complainant acknowledged that, since leaving the
institution, she had not maintained contact with the researcher so that she did not h o w if
the two had begun a collaboration since her departure.
The subject cites four published papers and one unpublished manuscript in the proposal
that were co-authored by the complainant and researcher. In addition, the subject
describes the researcher as a collaborator on the project in the proposal, and includes a
detailed description of the new location of the subject's laboratory, immediately adjacent
to the researcher's lab. Finally, the subject's proposal provides several examples of ways
in which his and the researcher's departments were actively working to improve their
formal and informal interactions to improve the komrnunication of research interests and
ideas.
Our review of several of the complainant's and researcher's joint relevant published
papers revealed no similar text in the proposal and these publications. Without more
specific information from the complainant, we have no reason to suspect that the subject
has not done exactly what he states he has done, initiated a collaborative relationship with
the researcher. This would explain any apparent shared information that might be
contained in the proposal.
This inquiry is closed and no further action will be taken.   ..


cc: Investigations, IG




                                        Page 1'of 1
